                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A02110051                                                                     Page 1 of I



          This case arose from a proactive summer research project involving Current and Pending Support on
          selected grants at several major institutions. In particular, this case involves possible violation of
          NSF's 2/9ths Rule, which states that a PI can only receive a total of two months of summer salary
          per year from NSF grants. According to the proactive research, the subject' requested one month of
          summer salary (per year, for three years) in one NSF proposal2 (which was sent to NSF in October
          2000) along with two months of summer salary (per year, for three years) in a second NSF proposal3
          (which was sent to NSF in November 2000).


11        NSF granted each proposal.

          Although these proposals contain a cumulative request for three months of summary salary (per
          year), the subject submitted an appropriate Current and Pending Support Form on the second NSF
          proposal (submitted on 7 November 2000). Accordingly, NSF granted only one month of summer
          salary on each of the projects.

          The subject did not violate NSF's 219th~Rule, and accordingly this case is closed.




           ' [redacted]
             [redacted]
             [redacted]



 NSF OIG Form 2 (1 1/02)
